November 9, 2009

SUSAN M. BROWNELL
VICE PRESIDENT, SUPPLY MANAGEMENT

SUBJECT: Audit Report – Revenue Generation Efforts in Supply Management
         (Report Number CA-AR-10-001)

This report presents the results of our audit of Revenue Generation Efforts in Supply
Management (Project Number 09YG007CA000). Our objective was to assess how the
U.S. Postal Service is leveraging its buying power to generate revenue. This audit is
self-initiated and addresses Postal Service strategic risk issues. See Appendix A for
additional information about this audit.

Conclusion

Supply Management’s primary objective is lowering costs through effectively managing
the supply stream, not generating revenue. However, the Postal Service is seeking to
generate revenue wherever it can and has asked that all Postal Service organizations
take an innovative approach to revenue generation. Seeing suppliers as potential
customers and offering them Postal Service solutions to meet their needs adds value to
the supply chain. While there are guidelines on pursuing revenue generation in supplier
relationships, we found that several Supply Management portfolios have revenue-
generating efforts underway that leverage its significant buying power. One promising
collaborative effort is the Supplier Sales Lead Program (SSLP). We are also providing,
for your consideration, the results of a benchmarking effort we commissioned to identify
best practices in revenue generation via supply management.

Supplier Sales Lead Program

Supply Management launched the SSLP in December 2007. The objective of this
initiative is to evaluate opportunities for reinvigorating supplier sales leads in the context
of competitive product segments and leveraging existing relationships with Postal
Supplier Council (PSC) members to generate sales revenue. Our discussion with
members of the SSLP1 disclosed that all participants consider the SSLP to be an
excellent program. However,the program had grown stagnant until recently and not all
portfolios are participating. SSLP participants were receptive to our feedback and
currently have specific efforts underway to reach out to the supplier community
regarding Postal Service products. We believe the Postal Service can achieve further
success by continuing to increase management support for SSLP and expanding the

1
    We met with Postal Service and supplier participants.
Revenue Generation Efforts in Supply Management                                   CA-AR-10-001



program to all Supply Management portfolios. See Appendix B for our detailed analysis
of this topic.
 
Other Revenue-Generating Efforts in Supply Management Portfolios

Our audit identified several successful revenue-generating efforts in various Supply
Management portfolios:

       The Mail Equipment Portfolio generates revenue by ensuring the Postal Service
        receives royalty payments for technologies developed by its contractors.

       The Transportation Portfolio has efforts underway to generate revenue from
        advertisements posted on transportation trailers.

       The Supplies Portfolio licensed cluster box units (CBU) to protect the Postal
        Service’s intellectual property rights. In FY 2008, the intellectual property license
        for CBU equipment generated $627,000.

       The Services Portfolio has partnered with one of its major suppliers regarding the
        use of Parcel Select for all Postal Service orders and for potential use of Parcel
        Select for all of the supplier’s orders. In addition, the Services Portfolio
        generated $12.4 million in recycling revenue in FY 2008.

       Supply Management Operations realizes a return on investment for the Postal
        Service by selling and recycling surplus, obsolete, and excess assets along with
        being a source for service parts for foreign posts. Investment recovery revenue
        totaled approximately $2.2 million in FY 2008.

While Supply Management personnel believe revenue-generating efforts were highly
worthwhile, they felt efforts could be enhanced to ensure they are applied judiciously
and evenly. Currently, there are no policies or guidelines to encourage appropriate
revenue-generating partnerships with suppliers. As a result, revenue-generating efforts
can be inconsistently applied and not fully implemented. See Appendix B for our
detailed analysis of this topic.

Best Practices in Private Industry Study Results

We contracted with NGI Solutions (NGIS) to identify private sector and foreign post best
practices for leveraging the supplier base to generate revenue. NGIS suggests the
following practices are key to the success of supply management revenue-generating
activities:

       Define revenue-generating objectives and guidelines with care.




                                                  2
Revenue Generation Efforts in Supply Management                               CA-AR-10-001



      Clarify the roles and responsibilities of Supply Management and business owners
       with respect to revenue generation.

      Differentiate among key suppliers.

      Know supplier market as well as the suppliers do.

      Look for win-win situations and build partnerships with suppliers.

      Invest wisely in Supply Management human capital.

In general, we found that Supply Management embraces these concepts. We will
provide the full report to Supply Management leadership separately for further
consideration. You can find our detailed analysis of these best practices as they relate
to current Supply Management policies and procedures in Appendix B .

We recommend that the vice president of Supply Management, in coordination with the
vice president, Sales:

1. Increase support for the Supplier Sales Lead Program and evaluate the feasibility of
   expanding it beyond just the suppliers on the Postal Supplier Council and into all
   Supply Management portfolios.

2. Consider establishing and implementing policies and procedures to encourage
   effective and appropriate revenue-generating efforts. These procedures should
   promote the following best practices:

      Identify key suppliers who may also be key customers based on market and
       Postal Service business objectives.

      Review supplier segmentation to ensure that it is a living process that enhances
       potential revenue generating activities.

      Explore best practices and opportunities to generate revenue via supply chain
       partnerships.

Management’s Comments

Management generally agreed with the findings and recommendations. Management
pledged to continue to support and expand the SSLP. Management suggested that, in
lieu of establishing policies and procedures, they would distribute our report throughout
the Supply Management Portfolios to share the successes and examples set by current
efforts and to encourage further collaboration with suppliers. Management expects to
complete these actions by December 9, 2009. See Appendix C for management’s
comments in their entirety.



                                                  3
Revenue Generation Efforts in Supply Management                             CA-AR-10-001



Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations, and
management’s corrective actions should resolve the issues identified in the report. We
encourage management to monitor these efforts and continue to support supplier
collaboration.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Judy Leonhardt, director,
Supply Management, or me at (703) 248-2100.

      E-Signed by Mark Duda
 VERIFY authenticity with ApproveIt




Mark W. Duda
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: Joseph Corbett
    Susan M. Plonkey
    Mark A. Guilfoil
    Dwight D. Young
    Craig D. Partridge
    Paula S. Garner
    Susan A. Witt
    Bill Harris




                                                  4
Revenue Generation Efforts in Supply Management                                CA-AR-10-001



                       APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Supply Management, an area of the Postal Service, works proactively with internal and
external business partners to integrate supply chains and deliver best value solutions
that are timely, cost effective, and operationally efficient. These efforts include
combining strategic and tactical buying, supplying processes, and managing customer
and supplier relations so they further the business and competitive interests of the
Postal Service.

Supply Management established a PSC in September 2005. One of the PSC’s main
objectives is to solicit ideas from membership to drive innovation and improvements that
are mutually beneficial to both suppliers and the Postal Service. The PSC membership
currently consists of 89 suppliers and various Postal Service managers. The full council
meets annually and holds quarterly meetings with the PSC’s Board of Advisors, which
includes 17 suppliers and a management committee comprised of Postal Service
managers.

The March 2007 Supply Management 3-Year Strategic Plan included a goal to develop
revenue-generating opportunities. The plan stated that Supply Management would look
further to identify opportunities that contribute to Postal Service revenue. To meet this
goal, Supply Management planned to focus on revenue-generating opportunities that
included: partnering with Sales and others to identify revenue-generating opportunities,
increase use of volume rebates, and increase licensing of its intellectual property. As a
result of these efforts, the Supply Management portfolios generated over $13 million
revenue in FY 2008. Revenue data for FY 2009 was not yet available.

In May 2008, the Postal Service introduced a new pricing policy that allows it to adjust
prices for shipping services – Express Mail®, Priority Mail®, Parcel Select®, Parcel
Return Service, and International Mail. For the first time, Postal Service pricing includes
commercial volume and contract prices, rebates, online price reductions, and other new
incentives. The pricing structure led to an opportunity to work collaboratively with the
PSC to generate revenue.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to assess how the Postal Service is leveraging its buying power to
generate revenue. To accomplish our objective, we reviewed the Supply Management
3-Year Strategic Plan to identify Supply Management opportunities that contribute to
Postal Service revenue. We interviewed portfolio and select category management
center (CMC) managers and the Supply Chain Management Solutions Group manager
to discuss Supply Management’s efforts to leverage Postal Service buying power to
generate revenue. We interviewed Postal Service sales managers regarding potential
efforts to leverage buying power to generate revenue. In addition, we interviewed




                                                  5
Revenue Generation Efforts in Supply Management                                  CA-AR-10-001



Postal Service personnel and suppliers on the SSLP to discuss revenue generation
initiatives and to obtain their thoughts about the program. Furthermore, we interviewed
the project lead of the SSLP to discuss SSLP revenue-generating initiatives, challenges,
and needs. We assessed the challenges the Postal Service has faced in their efforts to
generate revenue through purchase leveraging and identified relevant best practices in
the revenue-generating initiatives used by best private sector firms and foreign posts via
NGIS.

We conducted this audit from January through November 2009 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as we considered necessary under the circumstances. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. We discussed our observations
and conclusions with management officials on September 4, 2009, and included their
comments where appropriate. We did not rely on computer-generated data to support
our audit findings.

PRIOR AUDIT COVERAGE

We did not identify any prior audits or reviews related to the objective of this audit.




                                                  6
Revenue Generation Efforts in Supply Management                                   CA-AR-10-001



                           APPENDIX B: DETAILED ANALYSIS

Supplier Sales Lead Program

Supply Management launched the SSLP in December 2007. The objective of this
initiative is to evaluate opportunities to reinvigorate supplier sales leads in the context of
competitive product segments and to leverage existing relationships with PSC members
to generate sales revenue. The SSLP initially started with 20 members. The
membership included 11 participants from the Postal Service, eight of whom came from
Supply Management, and nine PSC suppliers. The SSLP is led by a representative
from Supply Management. The objective of the team was to get ideas from the
suppliers and Postal Service officials regarding potential collaborative revenue-
generating efforts and to target the shipping and marketing decisionmakers at the PSC.
This would allow the team to introduce the target audience to the new flexibility in Postal
Service products and services in a cooperative setting.

Our discussion with the members of the SSLP disclosed that all believe the SSLP is an
excellent program. Members credit the SSLP with providing opportunities to grow
business for the Postal Service and its supplier community, expanding knowledge of the
services provided by the Postal Service, and offering opportunities to strengthen
contacts within both the Postal Service and the vendor community. However, the
program had grown stagnant until recently and not all Supply Management portfolios
are participating. At the time our audit began, the SSLP had not had any activity since
meeting in March and September of 2008.

As we conducted our audit and received favorable feedback concerning the SSLP, we
shared it with both Supply Management and Sales. The SSLP met in April 2009 to
review its current status and determine how to proceed based on recent feedback
received from the vice presidents of Supply Management and Sales and the president
of Mail and Shipping Services. The SSLP will develop criteria to review and select
suppliers for further research and review, and further analyze, and refine that list to
identify the suppliers with the greatest opportunity for revenue-generating collaboration.
Based on the PSC’s enthusiastic reception of the program, we believe that increased
support and expansion of the SSLP to all Supply Management portfolios can provide a
venue for sharing revenue-generating best practices.

Other Revenue Generating Efforts in Supply Management Portfolios

The primary objective of the five Supply Management portfolios is to lower costs, not to
generate revenue. There is also, a strong philosophy apparent in industry and in
Supply Management that revenue-generating efforts in the supply chain have the
potential to create negative public perceptions and stray greatly from the primary
mission of the Supply Management organization. However, the Postal Service is
seeking to generate revenue wherever it can, and Supply Management recognizes
there is also value in seeing suppliers as potential customers and offering them Postal




                                                  7
Revenue Generation Efforts in Supply Management                               CA-AR-10-001



Service solutions to meet their needs. We held discussions with portfolio managers to
discuss revenue-generating initiatives in their portfolios and received the following
information:

      Mail Equipment Portfolio
       The Mail Equipment Portfolio anticipates royalty payments of 2 percent from the
       Flats Sequencing System and 10 percent from the Remote Encoding System
       should the supplier use the components or software for those systems on any
       other commercial venture. In addition, the portfolio has repair contracts with a
       few suppliers that do not have repair facilities in the U.S. One example provided
       was a repair contract with Dunker Motors that has resulted in revenue from the
       repair of automatic tray handling systems.

      Transportation Portfolio
       The Transportation Portfolio has identified revenue-generating opportunities with
       highway contract route suppliers from sharing revenue from advertisements on
       the suppliers’ trailers. The portfolio is piloting this program through a value
       engineering change proposal in the Denver Area.

      Supplies Portfolio
       The Supplies Portfolio, in conjunction with a cross-functional purchase team,
       developed a license to protect Postal Service intellectual property rights
       pertaining to CBU delivery equipment. By licensing intellectual property, the
       Postal Service is welcoming competition for the commercial sales portion of CBU
       equipment and controlling equipment standardization. In FY 2008, the
       intellectual property license for CBU equipment generated $627,000 and has the
       potential to provide $2 million in revenue each year.

      Services Portfolio
       The Services Portfolio has partnered with W.W. Grainger, one of its major
       suppliers, regarding the use of Parcel Select to ship products to Postal Service
       clients. The portfolio has worked with W.W. Grainger as one of the Postal
       Service’s national suppliers since 2001. The Postal Service is currently using
       Parcel Select for all of its shipments and is considering implementing it into
       Grainger’s distribution network. This effort is directly attributed to the
       collaborative efforts of the portfolio, the Great Lakes sales team, and
       representatives from Grainger’s program management and logistics
       departments. Currently, W.W. Grainger is using the Postal Select to send more
       than 550,000 packages containing parts and equipment to Postal Service
       customers each year.

       In addition, the Postal Service updated its waste, trash, and recycling services
       contracts in FY 2004 to reduce trash removal costs and receive maximum
       recycling rebates for recyclable items. Since that time, the Services Portfolio has
       been actively partnering with the Environmental Policies and Program Office to



                                                  8
Revenue Generation Efforts in Supply Management                                   CA-AR-10-001



       increase recycling revenues. The Postmaster General established an objective
       of generating $40 million in recycling revenue by FY 2010. In FY 2008, these
       efforts generated $12.4 million in recycling revenue.

      Supply Management Operations
       Supply Management Operations generates revenue by selling and recycling
       excess supplies, equipment, and real estate through contracts with investment
       recovery suppliers. Revenue generated through these contracts has exceeded
       $2 million annually for FYs 2008 and 2009. Excess service parts and excess
       mail processing equipment are sold to foreign posts.

Best Practices in Private Industry Study Results

We contracted with NGIS to identify private sector and foreign post best practices for
leveraging supplier base to generate revenue. To accomplish its task, NGIS performed
interviews, literature research, and benchmarking and interviewed JBG Corporation,
Jacobs Corporation, IBM Corporation, Bank of America, Danaher Corporation, Siemens
Corporation, Canada Post Corporation, Booz Allen, and Accenture,and other selected
individuals who were knowledgeable about supplier partnerships and supply chain
management in the postal marketplace. As a result of this research, the following are
key to successful supply management revenue-generating activities:

      Define Revenue Generating Objectives and Guidelines With Care
       A clear policy framework with respect to generating new revenue is critical within
       a successful supply management organization. The perception of supply
       management revenue-generating efforts is key to their success. One way to
       mitigate the potential for negative perceptions of these efforts is to have clear
       guidelines as to the scope of appropriate revenue-generating activities. Multiple
       interviews revealed that suppliers were sensitive to being “leveraged.” None of
       the best practice companies interviewed had explicit revenue goals. However,
       best practice companies have clearly defined policy goals regarding revenue
       generation that include supply chain collaboration.

       Clear roles and responsibilities should serve as a basis for building revenue-
       generating collaboration. One strategy for avoiding the strains that leveraging
       can create in supplier relationships is to build joint efforts that create value for
       customers.

      Differentiate Among Key Suppliers
       A robust supplier segmentation methodology is necessary to appropriately focus
       attention and resources. Supplier segmentation allows supply-based strategies
       to be differentiated and optimized for purchasing and revenue-generating
       opportunities.




                                                  9
Revenue Generation Efforts in Supply Management                                  CA-AR-10-001




      Know Supplier Market as Well As The Suppliers Do
       Differentiating among suppliers is critical to being able to develop acquisition
       strategies that fit the market and the needs of the business. Multiple leading
       supply chain experts suggest analyzing supplier markets to understand issues
       pertinent to timing, leverage, and pricing advantage. The Postal Service should
       not limit market analysis to the market role the supplier plays for the Postal
       Service but also include an understanding of how the supplier’s own supply
       market might include Postal Service products.

      Look for Win-Win Situations and Build Partnerships
       Collaborative efforts with suppliers have the best potential for fostering revenue-
       generating opportunities. Joint planning on how to serve the needs of both the
       Postal Service and the supplier offer opportunities to identify potential revenue
       generation from the supplier relationship. The companies interviewed sought to
       move away from traditional purchasing concepts and focus on building
       partnerships in the supply chain.

      Invest Wisely in Supply Management Human Capital
       As appropriate analysis of supplier markets is key, it is also critical that Supply
       Management staff have the experience and capacity to use relevant analytical
       tools and techniques to perform their jobs effectively and efficiently. The critical
       variable for a highly successful supply management organization is their people
       and their knowledge of the business of suppliers.  




                                                  10
Revenue Generation Efforts in Supply Management           CA-AR-10-001



                      APPENDIX C. MANAGEMENT’S COMMENTS




                                                  11
Revenue Generation Efforts in Supply Management        CA-AR-10-001




                                                  12
